           OFFICE OF
    THE INSPECTOR GENERAL


SOCIAL SECURITY ADMINISTRATION


 REGIONAL REVIEWS MAY DISCLOSE
 STATE DISABILITY DETERMINATION
    SERVICES’ USAGE OF SOCIAL
    SECURITY ADMINISTRATION
  COMPUTER EQUIPMENT FOR NON-
  PROGRAM COMPUTER PURPOSES

     July 2002       A-15-00-20050



 MANAGEMENT
ADVISORY REPORT




                 .
                                    Mission
We improve SSA programs and operations and protect them against fraud, waste,
and abuse by conducting independent and objective audits, evaluations, and
investigations. We provide timely, useful, and reliable information and advice to
Administration officials, the Congress, and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

  m Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
  m Promote economy, effectiveness, and efficiency within the agency.
  m Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
  m Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
  m Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:

  m Independence to determine what reviews to perform.
  m Access to all information necessary for the reviews.
  m Authority to publish findings and recommendations based on the reviews.

                                     Vision
By conducting independent and objective audits, investigations, and evaluations,
we are agents of positive change striving for continuous improvement in the
Social Security Administration's programs, operations, and management and in
our own office.
                                      SOCIAL SECURITY

MEMORANDUM

Date:   July 30, 2002                                                     Refer To:

To:     The Commissioner

From:   Inspector General

Subject: Management  Advisory Report – Regional Reviews May Disclose State Disability
        Determination Services’ Usage of Social Security Administration Computer Equipment
        for Non-Program Purposes (A-15-00-20050)


        OBJECTIVE
        Our objectives were to present information to the Social Security Administration (SSA)
        on the need to enforce existing policies and procedures regarding State Disability
        Determination Services’ (DDS) non-SSA program computer usage costs and on the
        need to develop specific policies and procedures for the calculation and reimbursement
        of such costs.

        BACKGROUND
        SSA provides funds to each DDS for the necessary costs of making disability
        determinations.1 In addition, some DDSs receive requests from various other State
        agencies to make disability determinations for claims not related to SSA benefits, claims
        commonly known as “Non-SSA Program” claims.2 SSA’s Program Operations Manual
        System (POMS) procedures require a Memorandum of Understanding (MOU) between
        the State and the SSA Regional Commissioner (RC) to outline the specifics of the non-
        SSA work.3 The MOU should specify that SSA will not be charged for the costs of the
        DDS’ non-SSA program work. Costs of DDS staff and other resources should be
        shared and allocated between SSA and non-SSA programs.

        In the past, as part of their fiscal year appropriations, DDSs were provided funds to
        purchase computer equipment. However, from May 1997 through September 2000,
        SSA purchased and distributed—to 48 of the 54 DDSs—computer equipment for the
        Intelligent Work Station/Local Area Network (IWS/LAN). Further, SSA plans to replace
        IWS/LAN computer equipment every 3 years in all SSA components, including DDSs.
        1
          20 CFR §§ 404.1626 and 416.1026.
        2
          POMS, DI 39563.210 A.
        3
          POMS, DI 39563.210 D.1.a.
Page 2 – The Commissioner


examination of policies and procedures provide sufficient information to warrant
management attention. Our work was conducted at OD and OS at SSA Headquarters
in Baltimore, Maryland, from June 2000 through November 2001.

RESULTS OF REVIEW
We found that SSA had funded and distributed over $18.3 million in computer
equipment to 17 DDSs identified as performing non-SSA work. However, the Agency
did not attempt to ensure that States share the cost of using SSA computer equipment
for non-SSA work. In addition, SSA’s MOUs and POMS need to be updated and
clarified.

SSA Had Not Taken Action To Assess Impact

During our interviews, we found OD had recognized the possibility that DDSs may be
using IWS/LAN equipment for non-SSA program purposes. After our discussions, OD
did a survey to determine whether equipment was actually used to process non-SSA
workloads. OD found that 14 of the 17 States listed in Appendix A answered ”yes” to
the question, “Are SSA IWS/LAN personal computers being used to process non-SSA
work?” The three States that replied “no” to the questions were Arkansas, California,
and New York. The survey did not involve on-site review of non-SSA work activities in
the DDSs. OD further informed us that it plans to ask SSA Regional Offices to do the
formal on-site review, as we requested, after this report is issued in final.

Also, OD had not attempted either to identify costs associated with the equipment or
pass along the necessary information for DDSs to identify such costs. Therefore, we
contacted the Office of Telecommunications and Systems Operations, which supplied
us with the cost information. For the period May 1997 through September 2000, SSA
funded and distributed $44.7 million in hardware, software installation, support, training,
etc., to 48 of the 54 DDSs for IWS-LAN purposes. Based on information obtained from
OD, we also determined that, during this same time period, SSA funded $18.3 million
for computer equipment and the associated costs for 17 of the 21 DDSs with MOUs
(see Appendix A). Because SSA does not perform on-site reviews, the potential exists
for a number of these DDSs to not report and share the cost of using SSA computer
equipment for non-SSA work.

MOUs and POMS Need Updating and Clarification

We determined that MOUs between SSA and the States, as well as POMS procedures,
had not been updated to reflect the potential current or future use of computer
equipment for non-SSA program purposes. We examined 21 MOUs maintained by OD
to determine whether they contained provisions to share the costs of SSA-funded and
distributed computer equipment.

·   None of these MOUs contained provisions that specified the requirement for the
    DDSs to reimburse SSA for computer-related costs used for non-SSA programs.
Page 3 – The Commissioner



·   MOUs are outdated, with some dating back to 1974.

·   Three of the MOUs4 contained provisions that specifically excluded computer
    hardware and software, software installation, and acquisition costs associated with
    SSA purchased equipment. Yet, these provisions provided for sharing maintenance
    costs. These exclusions do not comply with the POMS. The POMS states, “The
    Social Security Act (the Act) and the regulations providing for the administration of
    the disability programs permit appropriate funds to be used only for the purposes
    specified in titles II and XVI of the Act.” 5

According to OD officials, the establishment of most MOUs preceded SSA’s furnishing
of computer equipment. OD officials agreed that the MOUs should be reviewed and
amended to reflect current policy and procedures.

We found POMS6 describes that DDSs may perform disability determination work for
claims not related to SSA benefits and that all costs for non-SSA program work are
borne by the State. However, POMS7 does not specifically address costs associated
with the potential for SSA furnishing computer equipment for non-SSA program
purposes. Therefore, we believe SSA should provide DDSs with guidance specifically
describing the requirements and accounting methodology for DDSs to adjust claimed
costs for non-SSA program use of SSA computer equipment. OD has begun to work on
revisions to the POMS that address non-SSA computer work activities in the DDSs.

CONCLUSION AND RECOMMENDATIONS
We believe the conditions we have identified through our data analysis and current
examination of policies and procedures provide sufficient information to warrant regional
on-site reviews of SSA computer equipment usage by DDSs for non-SSA program
purposes. Our review disclosed that SSA had neither conducted such reviews nor
updated MOUs between the RCs and the States to include issues related to the use of
SSA's funded and furnished computer equipment. Also, POMS guidance needs to be
updated to specifically address costs associated with sharing SSA computer equipment
used for non-SSA program purposes.

At the conclusion of our review, SSA conducted preliminary work to identify States using
computer equipment for non-SSA work and to revise policies and procedures. In future
engagements, we will review DDS’ usage of computer equipment for non-program
purposes as part of our administrative cost audits to determine whether such costs have
been allocated to non-SSA programs.

We recommend SSA:

4
  Idaho, Massachusetts and Vermont.
5
  POMS, DI 39563.210 C.
6
  See footnote 2.
7
  See footnote 6.
Page 4 – The Commissioner



1. Coordinate a formal on-site study of all DDSs usage of SSA IWS/LAN funded and
   distributed computer equipment to identify the extent to which DDSs have used SSA
   computer equipment for non-SSA program purposes.

2. Provide computer cost information to all DDSs so the States can quantify the
   allocation of non-SSA costs.

3. Amend the MOUs with the States and provide additional guidance in POMS, section
   DI 39563.210, to address potential current and future use of SSA computer
   equipment when it is used for non-SSA programs and to incorporate an appropriate
   allocation method to assure DDSs share the costs of such computer equipment.

4. Explore cost reimbursement in accordance with applicable policies and procedures
   from those States, which had significant usage of SSA funded computer equipment
   for non-SSA program purposes.
AGENCY COMMENTS AND OIG RESPONSE
SSA generally agreed with our recommendations. Regarding recommendation 3, SSA
commented that different DDSs will require different allocation methods. SSA’s position
is not inconsistent with our recommendation. Our recommendation was intended to
incorporate an appropriate allocation method for each DDS taking into consideration
variances in operations.

In complying with our recommendations, SSA will develop and release an RC/DDS
Administrator's Letter to the regions by September 30, 2002. This letter will detail the
protocol for obtaining the necessary information for the study, detail the computer cost
information to all DDSs, and request the allocation of non-SSA costs. Also, by
September 30, 2002, SSA will update the POMS relating to the use of computer
equipment for non-SSA program work. As SSA renegotiates the MOUs, it will ensure
the proper allocation method for each State’s share of the computer equipment costs is
documented and agreed upon. SSA will also review the current MOUs to determine
whether there is a basis for SSA to obtain cost reimbursement from the States. We
believe SSA’s response to this report provides an effective action plan for identifying
computer usage costs of non-SSA programs and ensures such use is excluded from
State DDS administrative costs claimed. (See Appendix B for the full text of SSA’s
comments.)




                                                James G. Huse, Jr.
                                      Appendices
APPENDIX A – Disability Determination Services with Memoranda of Understanding,
             Doing Non-Social Security Administration Work and Using Social
             Security Administration Distributed Computer Equipment

APPENDIX B – Agency Comments

APPENDIX C – OIG Contacts and Staff Acknowledgments
                                                                     Appendix A
            Disability Determination Services with Memoranda of
                 Understanding, Doing Non-Social Security
               Administration Work and Using Social Security
              Administration Distributed Computer Equipment

        .         Effective Date of
                   Memorandum of                          Equipment
      State        Understanding                      Installation Date      Total Costs*
Alaska            July 1982                  October 1998                     $    102,181
Arizona           August 1988                February 1998 – April 1999            730,834
Arkansas          October 1992               February 1998 – March 1998            305,842
California        February 1997              August 1998 – April 1999            4,271,589
Iowa              July 1989                  December 1998 – January 1999          397,594
Kansas            July 1974                  March 1998 – November 1998            386,951
Kentucky          October 1989               October 1998 – July 1999            1,402,953
Michigan          September 1999             November 1998 – October 1999           29,180
Mississippi       July 1998                  August 1998 – April 1999              803,164
New Mexico        July 1994                  September 1998 – October 1998         315,607
New York          January 1994               July 1997 – May 2000                3,153,379
North Carolina    July 1998                  January 2000 – February 2000        1,943,918
South Carolina    January 1987               December 1998 – April 1999          1,148,908
Tennessee         September 1993             February 1999 – May 2000            1,394,690
Vermont           June 1981                  April 2000                            174,451
Washington        November 1974              January 1998 – April 1999             846,422
Wisconsin         October 1992               August 1997 – February 1998           847,598
Total                                                                          $18,255,261
*Costs include hardware, software, installation, support training, etc.
                  Appendix B

Agency Comments
                                         SOCIAL SECURITY
MEMORANDUM                                                                        32078-24-883


Date:      May 31, 2002                                                           Refer To:   S1J-3

To:        James G. Huse, Jr.
           Inspector General

From:      Larry Dye /s/
           Chief of Staff

Subject:   Office of the Inspector General (OIG) Draft Management Advisory Report, “Regional Reviews
           May Disclose State Disability Services Usage of Social Security Administration Computer
           Equipment for Non-Program Purposes” (A-15-00-20050)—INFORMATION

           We appreciate the OIG’s efforts in conducting this review. Our comments on the report content
           and recommendations are attached.

           Please let us know if we may be of further assistance. Staff questions may be referred to
           Janet Carbonara on extension 53568.

           Attachment:
           SSA Response
COMMENTS ON THE OFFICE OF THE INSPECTOR GENERAL (OIG) DRAFT
MANAGEMENT ADVISORY REPORT, “REGIONAL REVIEWS MAY DISCLOSE STATE
DISABILITY SERVICES USAGE OF SOCIAL SECURITY ADMINISTRATION (SSA)
COMPUTER EQUIPMENT FOR NON-PROGRAM PURPOSES”
(A-15-00-20050)

We appreciate the opportunity to comment on the draft report. Following are our comments on
the recommendations.

Recommendation 1

Coordinate a formal on-site study of all Disability Determination Services’ (DDS) usage of SSA
Intelligent Work Station/Local Area Network (IWS/LAN) funded and distributed computer
equipment to identify the extent to which DDSs have used SSA computer equipment for non-
SSA program purposes.

Comment

We agree. SSA will develop and release a Regional Commissioner/DDS Administrator's Letter to
the Regions by September 30, 2002, which will detail the protocol for obtaining the necessary
information for the study.

Recommendation 2

Provide computer cost information to all DDSs so the States can quantify the allocation of non-
SSA costs.

Comment

We agree. The Regional Commissioner/DDS Administrator's Letter to all DDSs described above
will detail the computer cost information and request the allocation of non-SSA costs.

Recommendation 3

Amend the Memoranda of Understanding (MOU) with the States and provide additional guidance
in Program Operations Manual System (POMS) Section DI 39563.210 to address potential current
and future use of SSA computer equipment when it is used for non-SSA programs and to
incorporate an appropriate allocation method to assure DDSs share the costs of such computer
equipment.

Comment

We agree with the first part of this recommendation. By September 30, 2002, SSA will update the
POMS section that details non-SSA program work to address current and future use of equipment
supplied directly to the DDSs by SSA. However, we do not agree that any one allocation method
would be appropriate to assure equitable distribution of the costs between SSA and non-SSA
program work. As with all aspects of DDS operations, different DDSs will require different
allocation methods to equitably allocate the costs. As SSA proceeds with State renegotiations of the
MOUs, SSA will ensure that the proper allocation method for each State is documented and agreed
upon.

Recommendation 4

Explore cost reimbursement in accordance with applicable policies and procedures for those States
which had significant usage of SSA funded computer equipment for non-SSA program purposes.

Comment

We agree. We will review the current MOUs to see if there is a basis for SSA to obtain cost
reimbursement.
                                                                       Appendix C

OIG Contacts and Staff Acknowledgments
OIG Contacts

   Frederick C. Nordhoff, Director, Financial Management and Performance Monitoring
   Audit Division, (410) 966-6676
   Carl Markowitz, Audit Manager, (410) 965-9742

Acknowledgments

In addition to those named above:

   Steven Sachs, Auditor-in-Charge
   Sigmund Wisowaty, Auditor
   Annette DeRito, Writer-Editor
   Cheryl Robinson, Writer-Editor
   Kimberly Beauchamp, Writer-Editor


For additional copies of this report, please visit our web site at www.ssa.gov/oig or
contact the Office of the Inspector General’s Public Affairs Specialist at (410) 966-1375.
Refer to Common Identification Number A-13-98-12041.
                            DISTRIBUTION SCHEDULE

                                                                             No. of
                                                                            Copies

Commissioner of Social Security                                                1
Management Analysis and Audit Program Support Staff, OFAM                     10
Inspector General                                                              1
Assistant Inspector General for Investigations                                 1
Assistant Inspector General for Executive Operations                           3
Assistant Inspector General for Audit                                          1
Deputy Assistant Inspector General for Audit                                   1
 Director, Systems Audit Division                                              1
 Director, Financial Management and Performance Monitoring Audit Division      1
 Director, Operational Audit Division                                          1
 Director, Disability Program Audit Division                                   1
 Director, Program Benefits Audit Division                                     1
 Director, General Management Audit Division                                   1
Issue Area Team Leaders                                                       25
Income Maintenance Branch, Office of Management and Budget                     1
Chairman, Committee on Ways and Means                                          1
Ranking Minority Member, Committee on Ways and Means                           1
Chief of Staff, Committee on Ways and Means                                    1
Chairman, Subcommittee on Social Security                                      2
Ranking Minority Member, Subcommittee on Social Security                       1
Majority Staff Director, Subcommittee on Social Security                       2
Minority Staff Director, Subcommittee on Social Security                       2
Chairman, Subcommittee on Human Resources                                      1
Ranking Minority Member, Subcommittee on Human Resources                       1
Chairman, Committee on Budget, House of Representatives                        1
Ranking Minority Member, Committee on Budget, House of Representatives         1
Chairman, Committee on Government Reform and Oversight                         1
Ranking Minority Member, Committee on Government Reform and Oversight          1
Chairman, Committee on Governmental Affairs                                    1
Ranking Minority Member, Committee on Governmental Affairs                        1

Chairman, Committee on Appropriations, House of Representatives                   1

Ranking Minority Member, Committee on Appropriations,
 House of Representatives                                                         1

Chairman, Subcommittee on Labor, Health and Human Services, Education
 and Related Agencies, Committee on Appropriations,
 House of Representatives                                                         1

Ranking Minority Member, Subcommittee on Labor, Health and Human
 Services, Education and Related Agencies, Committee on Appropriations,
 House of Representatives                                                    1
Chairman, Committee on Appropriations, U.S. Senate                           1
Ranking Minority Member, Committee on Appropriations, U.S. Senate            1
Chairman, Subcommittee on Labor, Health and Human Services, Education
 and Related Agencies, Committee on Appropriations, U.S. Senate              1
Ranking Minority Member, Subcommittee on Labor, Health and Human
 Services, Education and Related Agencies, Committee on Appropriations,
 U.S. Senate                                                                 1
Chairman, Committee on Finance                                               1
Ranking Minority Member, Committee on Finance                                1
Chairman, Subcommittee on Social Security and Family Policy                  1
Ranking Minority Member, Subcommittee on Social Security and Family Policy   1
Chairman, Senate Special Committee on Aging                                  1
Ranking Minority Member, Senate Special Committee on Aging                   1
Vice Chairman, Subcommittee on Government Management Information
  and Technology                                                             1
President, National Council of Social Security Management Associations,
  Incorporated                                                               1
Treasurer, National Council of Social Security Management Associations,
  Incorporated                                                               1
Social Security Advisory Board                                               1
AFGE General Committee                                                       9
President, Federal Managers Association                                      1
Regional Public Affairs Officer                                              1


Total                                                                        97
                   Overview of the Office of the Inspector General


                                        Office of Audit

The Office of Audit (OA) conducts comprehensive financial and performance audits of the
Social Security Administration’s (SSA) programs and makes recommendations to ensure that
program objectives are achieved effectively and efficiently. Financial audits, required by the
Chief Financial Officers Act of 1990, assess whether SSA’s financial statements fairly present
the Agency’s financial position, results of operations, and cash flow. Performance audits review
the economy, efficiency, and effectiveness of SSA’s programs. OA also conducts short-term
management and program evaluations focused on issues of concern to SSA, Congress, and the
general public. Evaluations often focus on identifying and recommending ways to prevent and
minimize program fraud and inefficiency.

                               Office of Executive Operations

The Office of Executive Operations (OEO) supports the Office of the Inspector General (OIG)
by providing information resource management; systems security; and the coordination of
budget, procurement, telecommunications, facilities and equipment, and human resources. In
addition, this office is the focal point for the OIG’s strategic planning function and the
development and implementation of performance measures required by the Government
Performance and Results Act. OEO is also responsible for performing internal reviews to ensure
that OIG offices nationwide hold themselves to the same rigorous standards that we expect from
the Agency, as well as conducting employee investigations within OIG. Finally, OEO
administers OIG’s public affairs, media, and interagency activities and also communicates OIG’s
planned and current activities and their results to the Commissioner and Congress.

                                    Office of Investigations

The Office of Investigations (OI) conducts and coordinates investigative activity related to fraud,
waste, abuse, and mismanagement of SSA programs and operations. This includes wrongdoing
by applicants, beneficiaries, contractors, physicians, interpreters, representative payees, third
parties, and by SSA employees in the performance of their duties. OI also conducts joint
investigations with other Federal, State, and local law enforcement agencies.

                              Counsel to the Inspector General

The Counsel to the Inspector General provides legal advice and counsel to the Inspector General
on various matters, including: 1) statutes, regulations, legislation, and policy directives
governing the administration of SSA’s programs; 2) investigative procedures and techniques;
and 3) legal implications and conclusions to be drawn from audit and investigative material
produced by the OIG. The Counsel’s office also administers the civil monetary penalty program
